APPENDIX

1a
APPENDIX A
NOT TO BE PUBLISHED IN OFFICIAL
REPORTS
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE
PEOPLE OF THE STATE OF
CALIFORNIA,

[ENDORSED FILED
OCT 30, 2019]

Plaintiffs and Respondent, A157169
v.
ARTHUR GREGORY
LANGE,

(Sonoma County
Super. Ct. No.
SCR699391)

Defendant and Appellant.
After Arthur Gregory Lange was charged with
driving under the influence of alcohol (Veh. Code,
§ 23152), he moved to suppress evidence. The court
denied Lange’s motion and the appellate division
affirmed. Lange subsequently pled no contest to a
misdemeanor offense, and then appealed the denial
of his suppression motion a second time. The
appellate division affirmed Lange’s judgment of
conviction.
Lange petitioned for transfer to this court based
on an order in a civil proceeding finding Lange’s
arrest was unlawful. We granted the unopposed
petition. We conclude Lange’s arrest was lawful and
affirm Lange’s judgment of conviction.

2a
FACTUAL AND PROCEDURAL BACKGROUND
In January 2017, the prosecutor charged Lange
with two misdemeanor violations of driving under the
influence of alcohol (Veh. Code, § 23152, subds. (a),
(b)), and with the infraction of operating a vehicle’s
sound system at excessive levels (id., § 27007). Later
the prosecutor added an allegation that Lange had a
prior conviction for driving under the influence (id.,
§ 23540).
I. The Suppression Hearing
In March 2017, Lange moved to suppress
evidence arguing a police officer’s warrantless entry
into his home violated the Fourth Amendment. At
the hearing on the motion, California Highway Patrol
Officer Aaron Weikert testified that on October 7,
2016, at around 10:20 p.m., he was parked
perpendicular to State Route Highway 12 in Sonoma
County. He observed a car “playing music very
loudly.” The officer was about 200 feet from the car.
The driver—later identified as Lange—honked the
car’s horn four or five times. There were no other
vehicles in front of Lange and the officer “wasn’t sure
what [Lange] was honking at.”
The officer began following Lange intending to
conduct a traffic stop. There were several cars
between the officer’s and Lange’s. The officer
observed Lange make a right turn. When the officer
turned right, there were no vehicles between them,
but Lange was about 500 feet ahead. Lange turned
left and the officer followed.
According to the officer, Lange stopped for a few
seconds. The officer stopped as well. When Lange

3a
began to move forward, the officer activated his
overhead lights. The officer did not do so earlier
because he was not familiar with the street and was
trying to get his “bearings.” The officer’s overhead
lights consisted of “four red lights and there is a
white bright light that switches between red and
blue.” Lange “failed to yield.”
Lange turned into a driveway and the officer
followed. Lange’s car went into a garage and the
garage door began to close. The officer exited his
vehicle, approached the garage door, stuck his foot
“in front of the sensor and the garage door started to
go back up.” The officer went into the garage to speak
to Lange. The officer asked Lange if he noticed the
officer. Lange said he did not.
The court admitted into evidence a video
recording of the incident and reviewed it at the
hearing. A private investigator testified that Lange
never came to a complete stop when being followed by
the officer and opined on the short length of time
between when the officer activated his overhead
lights and when Lange turned into his driveway.
At the hearing, defense counsel argued a
reasonable person in Lange’s position would not have
thought he was being detained when the officer
activated his overhead lights and the officer should
not have entered Lange’s garage because the officer
was investigating possible traffic infractions, not
serious felonies. The prosecutor argued that Lange
committed a misdemeanor when he failed to stop
after the officer activated his overhead lights. The
officer had probable cause to arrest Lange for this

4a
misdemeanor offense and exigent circumstances
justified the warrantless entry into Lange’s garage.
The trial court denied the suppression motion.
The court stated: “Obviously, the vehicle code
violations are not egregious, but they are violations of
the vehicle code. The Officer did have in his
discretion the right to turn on the lights when he felt
he wanted to, and perhaps the officer—we can make
all kinds of perhapses. Perhaps he wanted to follow
him further. Perhaps he wanted to see if there was
anything else that was happening. The fact that the
Defendant turned into the driveway, I don’t know
that the officer had any way of knowing that. . . . [¶] I
don’t think that we can look at this as having the
officer entering the garage saying didn’t you see my
lights as showing that there isn’t probable cause. I
mean certainly that would be an inquiry as to why
didn’t you stop earlier. You both had a lot of points on
authority. They can be interpreted various ways. At
this time, from the testimony I’ve heard, I’m going to
find that this motion is not well taken and deny the
motion.”
II. The Civil Proceeding
Based on this incident, the Department of Motor
Vehicles (DMV) suspended Lange’s license for one
year, and Lange filed a petition for administrative
mandamus to overturn the suspension. (Lange v.
Shiomoto et al., Super Ct. Sonoma County, 2017, No.
SCV-260489.)
In early January 2018, the court granted the
petition determining Lange’s arrest was unlawful.
The court concluded the “hot pursuit” doctrine did not
justify the warrantless entry because when the officer

5a
entered Lange’s garage, all the officer knew was that
Lange had been playing his music too loudly and had
honked his horn unnecessarily, which are infractions,
not felonies. The court rejected the DMV’s argument
that Lange was attempting to flee into his garage to
avoid a detention initiated in a public place. It
concluded there was no evidence Lange knew the
officer was following him, nor any evidence Lange
was attempting to flee. As the court explained, Lange
“was driving to his home. There is no evidence of any
bad driving or that [Lange] otherwise operated his
vehicle in an unsafe or unlawful manner. When
[Lange] got to his residence, he turned into his
driveway, drove into his garage, and attempted to
close the automatic garage door. The door would have
closed, had the officer not stopped it with his foot,
causing it to reopen.”
III. The Appellate Division Proceedings
In late January 2018, the appellate division of
the Sonoma County Superior Court affirmed the
denial of Lange’s suppression motion. It determined
the officer had probable cause to believe Lange
“intended to evade a detention that was initiated in a
public place” and, as a result, the entry into Lange’s
garage was lawful. As the appellate division
explained, “the analysis is an objective analysis, and
therefore the subjective beliefs and intents of both
the officer and [Lange] are irrelevant. The Court
finds that a reasonable person in [Lange]’s position
would have known the officer intended to detain
[Lange] when the officer activated his emergency
lights from right behind [Lange]’s vehicle and
continued following [Lange] up his driveway. The fact
that the officer followed [Lange] up his driveway,

6a
rather than continue to drive up the road, provided
ample notice that [Lange] was the target of the
investigation. Based upon [Lange]’s failure to submit
to the officer’s show of authority, and the closing of
the garage door behind [Lange], there was probable
cause to believe [Lange] was attempting to evade the
detention in violation of [Penal Code section] 148[,
subdivision] (a).”
After Lange pled no contest to the misdemeanor
offense of driving under the influence of alcohol (Veh.
Code, § 23152, subd. (b)), he appealed from his
conviction, again challenging the denial of his
suppression motion. The People moved to dismiss
Lange’s second appeal. In November 2018, the
appellate division denied the motion to dismiss. In
March 2019, the appellate division affirmed Lange’s
conviction finding there was probable cause to believe
Lange intended to evade a detention initiated in a
public place, and that the officer’s entry into both
Lange’s driveway and his garage were lawful.
In April 2019, Lange requested the appellate
division certify his case for transfer to this court
(California Rules of Court, rule 8.1005). The
appellate division denied the request. Lange then
petitioned this court for transfer (id., rule 8.1006). We
granted the unopposed petition.
DISCUSSION
The People contend we should dismiss this appeal
“as the second appellate judgment is either void or
voidable.” We are not persuaded we should dismiss
this appeal or remand it for dismissal. On the merits,
we affirm.

7a
I.

The Appellate Division Had Jurisdiction to
Review Lange’s Second Appeal

The People argue that Lange’s second appeal to
the appellate division, made after he entered his plea,
is “either void for lack of statutory appellate
jurisdiction under subdivisions (j) and (m) of Penal
Code section 1538.5, or voidable because . . . [the
appellate division’s first decision] is law of the case.”
We are not persuaded. The exclusionary rule
generally prohibits the prosecution from introducing
evidence obtained by way of a Fourth Amendment
violation, and Penal Code section 1538.51 is “the
Legislature’s codification of the exclusionary rule.”
(Barajas v. Appellate Division of Superior Court
(2019) 40 Cal.App.5th 944, 954.) Subdivision (j) of
section 1538.5 provides in part that “[i]f the property
or evidence seized relates solely to a misdemeanor
complaint, and the defendant made a motion for . . .
the suppression of evidence in the superior court
prior to trial, both the people and defendant shall
have the right to appeal any decision of that court
relating to that motion to the appellate division . . . .”
Subdivision (m) provides in part that “[a] defendant
may seek further review of the validity of a search or
seizure on appeal from a conviction in a criminal case
notwithstanding the fact that the judgment of
conviction is predicated upon a plea of guilty.” (Italics
added.)
“ ‘If the language of the statute is not ambiguous,
the plain meaning controls . . . .’ ” (In re Jennings
(2004) 34 Cal.4th 254, 263.) Here, the statute plainly
1

Undesignated statutory references are to the Penal Code.

8a
provides that after entering a plea, a defendant can
seek further review of the validity of a search or
seizure. (§ 1538.5, subd. (m).) “Nothing in the
statutory language expressly prohibits raising the
same substantive issues through a different
procedural mechanism. . . . [¶] . . . [¶] In adopting
section 1538.5, the Legislature provided multiple
procedural vehicles for both the defendant and the
prosecution to litigate and relitigate search and
seizure issues . . . .” (People v. Kidd (2019) 36
Cal.App.5th 12, 19–20.) Therefore we reject the
People’s argument that the appellate division lacked
statutory jurisdiction to consider Lange’s second
appeal.
In arguing otherwise, the People claim a
defendant’s right to seek further review under section
1538.5, subdivision (m) renders “advisory” an
appellate division’s decision under subdivision (j). We
disagree. A defendant’s suppression motion filed
pursuant to subdivision (j) presupposes a pending
misdemeanor complaint against the defendant. As a
result, there is nothing abstract or advisory about the
appellate division’s decision on the motion. (See

Pacific Legal Foundation v. California Coastal Com.

(1982) 33 Cal.3d 158, 170 [reviewing courts should
not issue advisory opinions or resolve “abstract
differences of legal opinion”].)
The People argue that Lange’s plea “is a waiver of
any claims of the inadmissibility of evidence to
support the conviction, including search and seizure
claims . . . .” Not so. “Subdivision (m) constitutes an
exception to the rule that all errors arising prior to
entry of a guilty plea are waived . . . .” (People v.
Lilienthal (1978) 22 Cal.3d 891, 897.)

9a
II. Res Judicata and the Law of the Case Do Not

Require Dismissal

Next, the People argue that if statutory
jurisdiction exists, then the appellate division’s
ruling on Lange’s second appeal is “voidable” based
on the law of the case doctrine or the doctrine of res
judicata. The People claim we should either dismiss
this appeal or remand for dismissal. We disagree.
A. The Doctrines of Res Judicata and the Law of

the Case

The doctrines of res judicata and the law of the
case are similar, but not identical. “ ‘The prerequisite
elements for applying the doctrine [of res
judicata] . . . are . . . : (1) A claim or issue raised in
the present action is identical to a claim or issue
litigated in a prior proceeding; (2) the prior
proceeding resulted in a final judgment on the
merits; and (3) the party against whom the doctrine
is being asserted was a party or in privity with a
party to the prior proceeding. [Citations.]’ ” (People v.
Barragan (2004) 32 Cal.4th 236, 253.)
Under the doctrine of the law of the case,
“ ‘[W]here an appellate court states a rule of law
necessary to its decision, such rule “ ‘must be adhered
to’ ” in any “ ‘subsequent appeal’ ” in the same case,
even where the former decision appears to be “
‘erroneous’ ” ’ [Citations.] Thus, the law-of-the-case
doctrine ‘prevents the parties from seeking appellate
reconsideration of an already decided issue in the
same case absent some significant change in
circumstances.’ [Citation.] The doctrine is one of
procedure, not jurisdiction, and it will not be applied
‘where its application will result in an unjust

10a
decision, e.g., where there has been a “manifest
misapplication of existing principles resulting in
substantial injustice” [citation] . . . .’ [Citation.]”
(People v. Boyer (2006) 38 Cal.4th 412, 441.)
B. The Doctrine of Res Judicata Does Not Apply
Although the People’s primary argument appears
to be based on the law of the case doctrine, the People
also contend Lange “was barred from further review
. . . under the doctrine of res judicata.” We are not
persuaded.
Addressing a former version of section 1538.5,
which required defendants seeking review of a denial
of a pretrial suppression motion to file a writ, our
Supreme Court held the doctrine of res judicata did
not preclude further review of the same issue on
appeal. (People v. Medina (1972) 6 Cal.3d 484, 492
(Medina), disapproved on other grounds by Kowis v.
Howard (1992) 3 Cal.4th 888, 896–897.) Our high
court reasoned that “[i]n view of the express language
of [former] section 1538.5, application of the doctrine
of res judicata to give conclusive effect on appeal from
a judgment of conviction to an appellate court’s
earlier decision denying defendant’s application for a
pretrial writ would be inappropriate even when the
denial of the writ is by an opinion demonstrating
adjudication of the merits. The statute permits the
defendant to seek further review of the validity of the
challenged search on appeal from a judgment of
conviction, a concept totally at variance with
application of the doctrine of res judicata.” (Medina,
at p. 492.)

Medina involved a writ petition that had been
summarily denied, but “the Supreme Court made

11a
clear it was basing [its decision] on the broader
ground that res judicata was inapplicable any time
the denial of a defendant’s section 1538.5 motion—
summary or otherwise—was involved.” (People v.
Hallman (1989) 215 Cal.App.3d 1330, 1335
(Hallman), disagreed with on other grounds by
People v. Williams (1999) 20 Cal.4th 119, 133.) While
Medina involved “interlocutory writ relief,” Hallman,
like the case presently before us, concerned “an
interlocutory appellate remedy.” (Hallman, at p.
1336.) Hallman is directly on point because, like
Lange, the defendant in Hallman filed two appeals in
the appellate department of the superior court under
section 1538.5, subdivisions (j) and (m). (Hallman, at
pp. 1334–1335.)
As explained in Hallman, “[b]efore the adoption
of section 1538.5, the Assembly Interim Committee
Report on Search and Seizure anticipated the very
situation before us and rejected the notion that
interim appeals would have preclusive affect upon a
defendant seeking postconviction review of his or her
section 1538.5 motion. [Citation.] The committee,
stating that ‘[c]onsideration should also be given to
the question of whether a defendant should be bound
by an adverse ruling on a preliminary appeal. . . .’,
noted that the various proposals before them
specifically provided that a preliminary appeal would
not be binding and that a defendant could raise an
identical issue again following a judgment of
conviction. [Citation.] The report explained, ‘. . . a
second appeal would enable the appellate court to
consider the search and seizure issue in the context
of the entire case and ensure the defendant of
maximum protection for his constitutional rights.’

12a
. . . [¶] There is nothing in the language or history
of section 1538.5 which suggests that the Legislature
intended any pretrial determination of a motion to
suppress evidence would be binding on a defendant
following a conviction. Further, the Supreme Court in
Medina concluded that an interim appeal will not
preclude a defendant from seeking postconviction
review of his section 1538.5 motion. Thus, we hold
that the doctrine of res judicata does not apply here
and Hallman is not barred from ‘further review’ of his
section 1538.5 motion following his judgment of
conviction.” (Hallman, supra, 215 Cal.App.3d at pp.
1336–1337, fns. omitted.)
In claiming the doctrine of res judicata precluded
the appellate division from entertaining a second
appeal after Lange pled no contest to a misdemeanor
offense, the People do not address Hallman’s analysis
of section 1538.5’s legislative history. Instead, the
People simply disagree with Hallman’s analysis. We
agree with Hallman’s analysis and adopt it as our
own.
C. The Doctrine of the Law of the Case Does Not

Require Dismissal

With regard to the law of the case doctrine, our
high court stated: “Normally the doctrine of the law
of the case requires adherence to an appellate court’s
statement in its opinion on appeal of a rule of law
necessary to its decision.” (Medina, supra, 6 Cal.3d at
p. 491, fn. 7.) Our high court continued: “In
determining whether the law of the case will control
the decision on the subsequent appeal, however, the
appellate court should keep in mind that ‘the doctrine
of the law of the case, which is merely a rule of

13a
procedure and does not go to the power of the court,
has been recognized as being harsh, and it will not be
adhered to where its application will result in an
unjust decision.’ ” (Id. at p. 492.)
In Medina, the Supreme Court did not apply the
law of the case doctrine because the denial of the
defendant’s petition for a writ of prohibition was by
minute order without an opinion. (Medina, supra, 6
Cal.3d at pp. 487, 491–493.) Similarly, in Hallman,
supra, 215 Cal.App.3d at pages 1336 and 1337,
footnote 6, the court stated that “inasmuch as no
opinion was filed in [defendant’s] original appeal,
reliance on the law of the case doctrine to preclude
. . . [post-conviction] review [under section 1538.5] is
unfounded.”
Here, unlike in Medina or Hallman, when Lange
appealed the pretrial denial of his motion to
suppress, the appellate division issued a written
opinion. The People contend it “constituted law of the
case.” Even if the appellate division should have
viewed this first decision as establishing the law of
the case, this doctrine does not require dismissal or a
remand for dismissal.
First, application of the doctrine would not have
required dismissal; instead, it would have required
the appellate division to adhere to any rule of law
necessary to its first decision. (People v. Boyer, supra,
38 Cal.4th at p. 441.) Second, the error, if any, was
harmless because in both opinions the appellate
division applied the same legal principles. In its first
opinion, it determined the officer’s entry into Lange’s
garage was lawful because there was probable cause
to believe Lange intended to evade a detention

14a
initiated in a public place. In the second opinion, it
applied the same legal principles to affirm the
judgment of conviction, determining that both the
officer’s entry into Lange’s garage and into Lange’s
driveway were lawful.2
Third, we reject the People’s claim that the
“transfer petition was improvidently granted and
should be dismissed . . . .” “A Court of Appeal may
order a case transferred to it for hearing and decision
if it determines that transfer is necessary to secure
uniformity of decision . . . .” (Cal. Rules of Court, rule
8.1002.) We granted Lange’s transfer request because
of conflicting decisions in Lange’s civil writ
proceeding and in his criminal case. The appellate
division (twice) determined the officer’s warrantless
entry was lawful, but in Lange’s civil case the court
found it was unlawful. The law of the case doctrine
does not apply here because one of these decisions
misapplies the law of search and seizure. (People v.
Boyer, supra, 38 Cal.4th at p. 441.)
III. The Officer’s Warrantless Entry Was Lawful
On the merits, we conclude the denial of Lange’s
suppression motion was supported by substantial
evidence and correct under the Fourth Amendment.
A. Governing Law and Standard of Review
Under the Fourth Amendment to the United
States Constitution and article I, section 13 of the
California Constitution, a warrantless entry by the
The People contend “the appellate division’s judgment
affirming the conviction was the correct result reached for the
wrong reason . . . .” Therefore the People concede that the error,
if any, was harmless.
2

15a
police into a residence to seize a person is
presumptively unreasonable and unlawful in the
absence of exigent circumstances. (Payton v. New
York (1980) 445 U.S. 573, 576–583.) “The burden is
on the People to establish an exception applies.”
(People v. Macabeo (2016) 1 Cal.5th 1206, 1213.)
“[T]he exigent circumstances exception applies to
situations requiring prompt police action. These
situations may arise when officers are responding to
or investigating criminal activity . . . . Examples of
exigent circumstances in prior cases include ‘ “hot
pursuit” ’ of a fleeing suspect . . . .” (People v. Ovieda
(2019) 7 Cal.5th 1034, 1042.) “[A] suspect may not
defeat an arrest which has been set in motion in a
public place . . . by the expedient of escaping to a
private place.” (United States v. Santana (1976) 427
U.S. 38, 43.)
“ ‘ “ ‘We defer to the trial court’s factual findings,
express or implied, where supported by substantial
evidence. In determining whether, on the facts so
found, the search or seizure was reasonable under
the Fourth Amendment, we exercise our independent
judgment.’ ” ’ ” (People v. Macabeo, supra, 1 Cal.5th
at p. 1212.)
B. The

Exigent
Applies

Circumstances

Exception

Lange contends “a detention within the meaning
of the Fourth Amendment did not occur when [the
officer] activated [his] . . . emergency lights.” This
contention misses the point. Instead, the focus should
be whether “an arrest or detention based on probable
cause is begun in a public place, but the suspect
retreats into a private place in an attempt to thwart

16a
the arrest.” (People v. Lloyd (1989) 216 Cal.App.3d
1425, 1428 (Lloyd); United States v. Santana, supra,
427 U.S. at pp. 42–43.) We answer this question in
the affirmative.
First, the officer testified he was in his patrol car
adjacent to the highway when he observed Lange
“playing music very loudly” and honking the horn
unnecessarily. The Vehicle Code prohibits operating
a “sound amplification system which can be heard
outside the vehicle from 50 or more feet when the
vehicle is being operated upon a highway” (Veh.
Code, § 27007), and it restricts the use of a horn to
occasions when it is necessary for safe operation or as
a theft alarm (id., § 27001). Thus, there was evidence
Lange was violating the Vehicle Code, which justified
the officer’s attempt to stop Lange’s vehicle. (See
People v. Hoyos (2007) 41 Cal.4th 872, 892 [perceived
Vehicle Code violation provided officer with probable
cause to stop car], abrogated on other grounds in
People v. McKinnon (2011) 52 Cal.4th 610, 641.)
Second, Lange claims he “had no reason to
believe that the vehicle behind him was a police car
until Officer Weikert forcibly entered his garage.” We
disagree. There were no other cars on the street when
Lange’s car slowed down and almost came to a
complete stop and when the officer pulled up directly
behind him. The officer’s car was only about 15 feet
behind Lange’s. When Lange’s car moved forward,
the officer activated his overhead emergency lights.
The lights consisted of “four red lights and there is a
white bright light that switches between red and
blue.” It was very dark outside and the lights
provided considerable illumination, lighting up the
area behind, around, and in front of Lange’s car.

17a
Based on this evidence, including our review of the
video of the incident, we conclude a reasonable
person in Lange’s position would have known the
officer intended for him to pull over. (People v. Brown
(2015) 61 Cal.4th 968, 978 [“The Supreme Court has
long recognized that activating sirens or flashing
lights can amount to a show of authority.”]; People v.
Bailey (1985) 176 Cal.App.3d 402, 405–406 [“A
reasonable person to whom the . . . [lights were]
directed would be expected to recognize the signal to
stop . . . .”].)3
Third, after the officer activated his overhead
lights, Lange drove for approximately four seconds
before entering his driveway. Indeed, Lange
acknowledges he continued driving his car for
“approximately 100 feet before it turned into the
driveway . . . .” It is a misdemeanor to willfully resist,
delay or obstruct a peace officer in the discharge of
his duties. (§ 148, subd. (a)(1).) The Vehicle Code also
makes it “unlawful to willfully fail or refuse to
comply with a lawful order, signal, or direction of a
peace officer.” (Veh. Code, § 2800.)4 By failing to
immediately pull over, Lange’s conduct gave the
officer probable cause to arrest him for these
misdemeanor offenses. Thus, we reject Lange’s claim
that the “only legitimate purpose Office Weikert had
for continuing to follow [Lange] at that point was to

By so concluding, we do not adopt a bright-line rule that
an officer’s use of overhead lights always constitutes a detention
or an attempt to detain.
3

A violation of Vehicle Code section 2800 is a misdemeanor.
(Veh. Code, § 40000.7, subd. (a)(2).)
4

18a
investigate . . . auditory traffic infractions . . . or issue
. . . a citation for those offenses.”
Lange claims he did not know the car behind him
was a police vehicle and that the officer’s initial
questions upon entering the garage support this
claim. But the relevant inquiry is whether, applying
an objective standard, the officer had probable cause
to arrest Lange. In other words, the proper inquiry is
whether it was reasonable for the officer to believe
Lange was fleeing from the officer. When Lange
failed to stop his car, the officer’s reasonable cause to
detain Lange for traffic infractions ripened into
probable cause to arrest him for misdemeanor
offenses. (See Lloyd, supra, 216 Cal.App.3d at p. 1429
[“With no right to resist this lawful detention . . .
[defendant’s] conduct . . . provided the officer with
probable cause to arrest him.”]; see also In re
Lavoyne M. (1990) 221 Cal.App.3d 154, 159 [“Minor’s
refusal to comply with the attempts to detain him
provided probable cause for the officer to arrest
him.”].)
Fourth, we conclude “the officer’s ‘ “hot pursuit” ’
into the house to prevent the suspect from frustrating
the arrest which had been set in motion in a public
place constitutes a proper exception to the warrant
requirement.” (Lloyd, supra, 216 Cal.App.3d at p.
1429.) We assume without deciding that the curtilage
of Lange’s home included his driveway. We focus only
on the time between when the officer activated his
overhead lights and followed Lange onto his
driveway. “The fact that the pursuit here ended
almost as soon as it began did not render it any the
less a ‘hot pursuit’ sufficient to justify the

19a
warrantless entry . . . .” (United States v. Santana,
supra, 427 U.S. at p. 43.)
C. Lange’s Remaining Arguments Fail
Lange
argues
that
Lloyd is factually
distinguishable because Officer Weikert did not
identify himself before attempting to arrest Lange.
We disagree. As explained ante, when the officer
activated his overhead lights, a reasonable person in
Lange’s position would have realized the need to pull
over.
Next, Lange argues the holding in Lloyd has been
“severely undercut by subsequent Ninth Circuit
cases,” and the exigent circumstance of “hot pursuit”
should be limited to “true emergency situations,” not
the investigation of minor offenses. Again, we
disagree.
Lange relies on the United States Supreme
Court’s decision in Welsh v. Wisconsin (1984) 466
U.S. 740 (Welsh). Welsh addressed “a warrantless
night entry of a person’s home in order to arrest him
for a nonjailable traffic offense.” (Id. at p. 742.) Based
in part on the minor nature of the offense, the
Supreme Court held the warrantless entry was
unreasonable. (Id. at pp. 754–755.) “When the
government’s interest is only to arrest for a minor
offense, . . . [the] presumption of unreasonableness is
difficult to rebut, and the government usually should
be allowed to make such arrests only with a warrant
issued upon probable cause by a neutral and
detached magistrate.” (Id. at p. 750, fn. omitted.) The
court noted “it is difficult to conceive of a warrantless
home arrest that would not be unreasonable under

20a
the Fourth Amendment when the underlying offense
is extremely minor.” (Id. at p. 753.)
However, in Lloyd, the Court of Appeal
distinguished Welsh on the ground that it did “not
involve pursuit into a home after the initiation of a
detention or arrest in a public place.” (Lloyd, supra,
216 Cal.App.3d at pp. 1429–1430.) “Where the
pursuit into the home was based on an arrest set in
motion in a public place, the fact that the offenses
justifying the initial detention or arrest were
misdemeanors is of no significance in determining
the validity of the entry without a warrant.” (Id. at p.
1430.) We find Welsh distinguishable for the same
reason.5
Furthermore, in Stanton v. Sims (2013) 571 U.S.
3, 9 (Stanton), a per curiam opinion, the United
States Supreme Court criticized the Ninth Circuit for
its tendency to read Welsh too broadly. As explained
by the court, Welsh “held not that warrantless entry
to arrest a misdemeanant is never justified, but only
that such entry should be rare.” (Stanton, at p. 9.)
Welsh did not “lay down a categorical rule for all
cases involving minor offenses” (Stanton, at p. 8), and
“nothing in the opinion establishes that the
seriousness of the crime is equally important in cases
of hot pursuit.” (Id. at p. 9.) The court discussed
Lloyd, noting it “refused to limit the hot pursuit
exception to felony suspects.” (Stanton, at p. 9.) The
court criticized the Ninth Circuit for concluding a
police officer was “plainly incompetent” for engaging
In addition, the Ninth Circuit and federal cases cited in
Lange’s opening brief and discussed in his reply brief are
inapposite because they are not “hot pursuit” cases.
5

21a
in conduct that was “lawful according to courts in the
jurisdiction where he acted.” (Id. at pp. 9–10.) Based
on Stanton’s clarification of Welsh, we adhere to
Lloyd’s determination that “a suspect may not defeat
a detention or arrest which is set in motion in a
public place by fleeing to a private place.” (Lloyd,
supra, 216 Cal.App.3d at p.1430.)
The parties discuss this court’s decision in People
v. Hua (2008) 158 Cal.App.4th 1027, in which we

held that exigent circumstances did not justify the
warrantless entry of appellant’s home. (Id. at p.
1030.) Reliance on Hua is misplaced because it was
not a hot pursuit case. (Id. at p. 1031.) In addition, in
Hua, the offense could not support a warrantless
entry because it was a “nonjailable” offense. (Id. at
pp. 1035–1036.) Here, the misdemeanor offense of
resisting a police officer is “jailable.” (In re Lavoyne
M., supra, 221 Cal.App.3d at pp. 158–159; People v.
Thompson (2006) 38 Cal.4th 811, 821 [upholding
warrantless entry because the offense was jailable].)
Because the officer was in hot pursuit of a suspect
whom he had probable cause to arrest for violation of
section 148, the officer’s warrantless entry into
Lange’s driveway and garage were lawful.
DISPOSITION
We affirm the judgment of conviction.
Jones, P.J.

22a
WE CONCUR:
Simons, J.
Burns, J.

23a
APPENDIX B
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SONOMA
IN SESSION AS AN APPELLATE DIVISION
THE PEOPLE OF THE
STATE OF
CALIFORNIA,
Plaintiff/Respondent,
v.
ARTHUR LANGE,
Defendant/Appellant.

[FILED: MARCH 29, 2019]
CASE NO. SCR-699391-AP
Ruling on Defendant’s
Second Appeal from Order
Denying Suppression
Motion

The judgment of conviction is AFFIRMED.
This is appellant/defendant Arthur LANGE’s
second appeal from the trial court’s order denying his
P.C. Sec. 1538.5 suppression motion. The first appeal
was a pretrial appeal of the suppression order. The
Appellate Panel affirmed the trial court’s order by
way of a written decision. Appellant then pled to
charges in the trial court, and filed an appeal from
the resulting judgment pursuant to P.C. Sec.
1538.5(m), claiming the trial court erroneously
denied the suppression motion.
The People filed a motion to dismiss the second
appeal, and the motion was litigated. After a hearing
on the motion, the Court ruled (and the People
effectively conceded) that, pursuant to P.C. Sec.
1538.5(m), People v. Medina (1972) 6 Cal.3d 484, and
People v. Hallman (1989) 215 Cal.App.3d 1330,
appellant (who pled no contest after the ruling in the
first appeal) was not precluded from post-conviction

24a
review of the denial [of] his suppression motion by
way of this second appeal.
This Court will apply the same “independent
review” standard for this second appeal that would be
applied if the first appeal had not occurred. That is,
the Court defers to the trial court’s express and
implied factual findings where supported by the
evidence, and exercises independent judgment in
determining the legality of the search based upon the
facts found. People v. Arebalos-Cabrera (2018) 27
Cal.App.5th 179, 185-186. The prior Appellate
decision does not have any binding effect on this
second appeal.
In the trial court, and in the first appeal, the
claimed 4th Amendment violation was the officer’s
warrantless entry into appellant’s garage.
In this second appeal, appellant again argues the
officer’s entry into the garage was unlawful, but now
also argues that the 4th Amendment violation
occurred even earlier, when the officer drove
into/onto appellant’s driveway. In light of the fact
that this new theory is purely a legal issue based on
undisputed facts, the Court rejects the People’s
argument that appellant forfeited the theory by not
raising it in the trial court. Therefore the Court will
consider the merits of the new theory. See People v.
American Surety Ins. Co. (2009) 178 Cal.App.4th
1437, 1440-1441.
The Court finds that the officer had probable
cause to believe appellant intended to evade a
detention that was initiated in a public place, and
therefore the officer’s entry into appellant’s driveway

25a
and subsequent entry into the garage was lawful
under People v. Lloyd (1989) 216 Cal.App.3d 1425.
Appellant’s reliance on Collins v. Virginia (2018)
138 S.Ct. 1663 is misplaced, as the facts of that case
did not involve a suspect retreating into his curtilage
and home in response to an attempted detention that
was initiated in a public place.
The judgment of conviction is affirmed.
DATED: 3-29-19

/s/

/s/

/s/

Presiding Judge of
the Superior Court,
Appellate Division

Judge of the
Superior Court,
Appellate Division

Judge of the
Superior Court,
Appellate Division

BRADFORD
DEMEO

VIRGINIA
MARCOIDA

PATRICK
BRODERICK

26a
APPENDIX C
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF SONOMA
IN SESSION AS AN APPELLATE DIVISION
THE PEOPLE OF THE
STATE OF CALIFORNIA,
Plaintiff/Respondent,

[ENDORSED FILED
JAN 25, 2018]
CASE NO. SCR-699391

v.
ARTHUR LANGE,

DECISION ON APPEAL

Defendant/Appellant.

The trial court’s order denying the suppression
motion is AFFIRMED.
The Court finds that the officer had probable
cause to believe appellant intended to evade a
detention that was initiated in a public place, and
therefore the officer’s entry into the garage was
lawful under People v. Lloyd (1989) 216 Cal.App.3d
1425.
The Court believes that the analysis is an

objective analysis, and therefore the subjective beliefs

and intents of both the officer and appellant are
irrelevant. The Court finds that a reasonable person
in appellant’s position would have known the officer
intended to detain appellant when the officer
activated his emergency lights from right behind
appellant’s vehicle and continued following appellant
up his driveway. The fact that the officer followed
appellant up his driveway, rather than continue to

27a
drive up the road, provided ample notice that
appellant was the target of the investigation. Based
upon appellant’s failure to submit to the officer’s
show of authority, and the closing of the garage door
behind appellant, there was probable cause to believe
appellant was attempting to evade the detention in
violation of P.C. Sec. 148(a).
The trial court’s order is AFFIRMED.
DATED: January 23, 2018

/s/

/s/

/s/

Presiding Judge of
the Superior
Court, Appellate
Division

Judge of the
Superior Court,
Appellate Division

Judge of the
Superior Court,
Appellate Division

RENE A.
CHOUTEAU

PATRICK
BRODERICK

PETER
OTTENWELLER

28a
APPENDIX D
SUPREME COURT OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE
________________________________
PEOPLE V. ARTHUR GREGORY LANGE
________________________________
S259560
February 11, 2020, Opinion Filed
No. A157169
_____________
Petition for review denied.

